2311 Douglas Street
Omaha, Nebraska 68102-1214

TN
CAQCKLE

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No.

THE PEOPLE OF THE STATE OF MICHIGAN,

Petitioner,
Vv

LARICCA SEMINTA MATHEWS,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8149 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of October, 2020.
J am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

Kreps Q. Boao Ondeaerbe Obl

Affiant

40088
